         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Interim Report




       Office of Inspector General
       Access Survey Results
       Report No. 09-P-0079         


       January 13, 2009

                       U.S. Environmental Protection Agency 	                                               09-P-0079
                                                                                                      January 13, 2009
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review               Office of Inspector General
This information was collected in    Access Survey Results
support of an Agency-wide
evaluation of impediments to          What We Found
U.S. Environmental Protection
Agency (EPA) Office of               The results of our survey disclosed significant lack of knowledge about the
Inspector General (OIG) audits       Agency’s policies with regard to interaction with the OIG, and numerous
and evaluations.                     requests for training in this area by survey respondents. Our analysis showed
                                     that 83 percent of respondents were either not aware, or did not know, of any
                                     policy or procedures governing interaction with the OIG. Further, 18 percent
Background
                                     of respondents did not believe that they can provide documentation or written
                                     responses to the OIG without permission from a supervisor. An additional
We sponsored an Agency-wide
                                     34 percent of the respondents did not know if this is allowed.
survey to assess EPA employees’
perceptions of their relationships
                                     There were also some troubling perceptions among the Agency staff about
with OIG staff with regard to
                                     management’s attitudes toward staff who talked to OIG staff without
access to personnel and
                                     permission. Survey results showed that 45 percent of respondents either agreed
information.
                                     or did not know whether they may face retribution if they provided information
                                     or documentation in response to an OIG request without the approval from
                                     their program manager or supervisor.

                                     This is an interim report for information only and does not represent any final
                                     conclusions or recommendations by the OIG.




For further information, contact
our Office of Congressional,
Public Affairs and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
HU




20090113-09-P-0079.pdf U
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460
                                                                                     OFFICE OF
                                                                                INSPECTOR GENERAL




                                       January 13, 2009

MEMORANDUM

SUBJECT:	             Interim Report: Office of Inspector General Access Survey Results
                      Report No. 09-P-0079


FROM:	                Wade T. Najjum
                      Assistant Inspector General for Program Evaluation
                      Office of Inspector General

TO: 	                 Marcus Peacock
                      Deputy Administrator


This memorandum report is to provide you with the results of an Agency-wide survey conducted
by the Office of Inspector General (OIG) in December 2008. The purpose of the survey was to
assess the perception of U.S. Environmental Protection Agency (EPA) employees concerning
their relationship with OIG staff with regard to OIG access to Agency personnel and
information. The survey results disclosed significant lack of knowledge about the Agency’s
policies with regard to interaction with OIG. There were also some troubling perceptions among
the Agency staff about management’s attitudes toward staff who talked to OIG staff without
permission.

The OIG has not completed its analysis of the results or drawn any final conclusions. However,
given that the survey responses indicate potentially significant problems, we are providing you
the results for your information. We make no recommendations in this interim report and no
response is necessary.

Should you have any questions, please contact Eric Lewis, Director, Special Reviews, at
lewis.eric@epa.gov or 202-566-2664.
                                                                                     09-P-0079 



Purpose of Review
This information was collected in support of an Agency-wide evaluation of impediments to
U.S. Environmental Protection Agency (EPA) Office of Inspector General (OIG) audits and
evaluations. In July 2008, the OIG became aware that EPA pollution enforcement officials
within the Office of Enforcement and Compliance Assurance had formally instructed managers
not to talk with the Government Accountability Office or the Agency’s own OIG. This
evidence, coupled with other documented impediments to OIG access to Agency information
relative to EPA programs and operations, prompted this review. The objective of this Agency-
wide survey was to assess the perception of EPA employees concerning their relationship with
OIG staff with regard to OIG access to Agency personnel and information.

This is an interim report for information purposes only and does not represent any final
conclusions by the OIG.

Background
The concept of accountability for public resources is key in the Nation’s governing process and
critical for a healthy democracy. To help ensure this accountability, Congress passed the
Inspector General Act of 1978 (5 U.S. Code Appendix). Under authority provided by this Act,
each Inspector General, is authorized under Section 6:

   •	 To have access to all records, reports, audits, reviews, documents, papers,
      recommendations, or other material available to the applicable establishment which relate
      to programs and operations with respect to that which the Inspector General has
      responsibilities under this Act; and

   •	 Whenever information or assistance requested under the above section is, in the judgment
      of an Inspector General, unreasonably refused or not provided, the Inspector General
      shall report the circumstances to the head of the establishment involved without delay.

Scope and Methodology
As a part of our overall evaluation, we sponsored an Agency-wide survey December 15-19,
2008, using the Agency’s mass-mailer system. Survey respondents were asked to respond to
questions about their interaction(s) with the OIG and their knowledge and understanding of
existing policies and procedures in their programs governing interaction with the OIG. The
survey instrument was completed by 1,019 EPA employees and 31 others (such as contractor
employees) during the 5-day period, for a total of 1,050 respondents. From these completed
surveys we tallied the responses for each question.

Survey Results
Complete survey results are provided in charts in Appendix A. Further, we believe that senior
leadership should be aware of the responses we received for particular questions. The OIG
found these employee perceptions to be problematic. These questions are:


                                                 1

                                                                                09-P-0079



   Question 28:	 Are you aware of any policies or procedures regarding how you may
                 interact with the OIG during an audit, evaluation, or investigation?


                                                 Don't Know
                                   Yes             10%
                                   17%




                              No
                             73%




   Issue: 83 percent of 1,050 respondents either are not aware or do not know of any policy
   or procedures governing interaction with the OIG. Numerous survey respondents also
   expressed the need for training in this area.

   Question 29F: I may provide any kind of documents or written answers to questions or
                surveys to the OIG without asking permission from a supervisor
                (excluding documents that require specific security clearance(s)).


                                                      Disagree
                                                        18%




                         Agree
                          48%


                                                              Don't Know
                                                                34%




Issue: 18 percent of 1,050 respondents do not believe that they can provide documentation
or written responses to the OIG without permission from supervisor. An additional
34 percent of the respondents do not know if this is allowed.




                                           2

                                                                                     09-P-0079 




Question 29J:     If I talk to OIG audit, evaluation or investigation without my supervisor's
                  permission I may face retribution or negative personnel consequences.

                                     Agree
                                      14%




                                                              Disagree
                     Don't Know                                 57%
                       29%




 Issue: 14 percent of 1,050 respondents believe they may face retribution if they talk to the
 OIG without permission from a supervisor. An additional 29 percent of the respondents
 do not know whether they will face retribution if they talk to the OIG without permission.


 Question 29K: 	If I provide information or documents to an OIG audit, evaluation or
                investigation without my supervisor's permission I may face retribution or
                negative personnel consequences.

                                  Agree
                                   14%




                                                              Disagree
                   Don't Know                                   55%
                     31%




 Issue: 14 percent of 1,050 respondents believe they may face retribution if they provide
 information or documents to the OIG without permission from a supervisor. An additional
 31 percent of the respondents do not know whether they will face retribution if they
 provide documents or information to the OIG without permission.




                                             3

                                                                                                                                 Appendix A

                                  Responses to the OIG Survey on Access
             •           This survey was available to all EPA employees December 15-19, 2008.
             •           1,050 employees completed the survey; participation was voluntary.
             •           “N” indicates the number of respondents to each question; percentages have been rounded.

           Question 1: Have you ever spoken to an OIG                             Question 2: Did your supervisor or program m anager
        em ployee conducting an audit, an evaluation, or an                                  know you spoke w ith the OIG?
                         investigation?                                                                  N=531
                             N=1050


      Yes                                      51                                Yes                                                      88

       No                                     45                                  No             6

Don't Know           5                                                     Don't Know        6

             0               20      40             60   80    100                       0           20     40             60        80        100
                                          percent                                                                percent



        Question 3: Were you told w hat to say to the OIG or                             Question 4: Was your supervisor or program
         w hat not to say to the OIG by your supervisor or                              m anager present w hen you spoke w ith the OIG?
                        program m anager?                                                                    N=22
                                N=466


      Yes            5                                                            Yes            9

       No                                                        95                No                                                      86

Don't Know       0                                                         Don't Know        5

             0               20      40             60   80    100                       0           20      40             60       80        100
                                          percent                                                                 percent




        Question 5: After you spoke w ith the OIG, did your
         supervisor or program m anager require you to
                 divulge w hat you told the OIG?
                               N=2


      Yes        0

       No                                     50

Don't Know                                    50

             0               20      40             60   80    100
                                          percent




                                                                      4

      Question 6: Have you ever been interview ed by an OIG                      Question 7: Did your supervisor or program m anager
       em ployee conducting an audit, an evaluation, or an                             know you w ere interview ed by the OIG?
                         investigation?                                                                 N=458
                             N=1050


      Yes                            44                                         Yes                                                    89

       No                                 52                                     No            5

Don't Know           5                                                    Don't Know       6

             0           20    40              60   80         100                     0           20        40             60    80        100
                                    percent                                                                       percent


        Question 8: Were you told w hat to say to the OIG or                         Question 9: Was your supervisor or program
         w hat not to say to the OIG by your supervisor or                       m anager present w hen you w ere interview ed by the
                        program m anager?                                                               OIG?
                                N=407                                                                   N=19


      Yes            5                                                          Yes                     21

       No                                                      95                No                                              74


Don't Know       0                                                        Don't Know       5

             0           20    40              60   80         100                     0           20        40             60    80        100
                                    percent                                                                       percent



       Question 10: After you w ere interview ed by the OIG,
       did your supervisor or program m anager require you
            to divulge w hat w as discussed w ith the OIG?
                                  N=4


      Yes                                 50

       No                                 50

Don't Know       0

             0           20    40              60   80         100
                                    percent




                                                                     5

          Question 11: Have you ever been asked to provide                                                               Question 12: Did your supervisor or program
           docum entation to the OIG as part of an audit, an                                                          m anager know you provided docum entation to the
                   evaluation, or an investigation?                                                                                         OIG?
                                N=1050                                                                                                      N=467


      Yes                                                 44                                                        Yes                                                                    89

        No                                                      49                                                   No              5

Don't Know            6                                                                                       Don't Know         6

             0                20                 40                  60           80             100                        0            20             40             60        80             100
                                                      percent                                                                                                percent


             Question 13: Who asked you to provide                                                                     Question 14: Did you provide the docum entation
          documentation to the OIG? (check all that apply)                                                                           directly to the OIG?
                                                                                                                                            N=414

An OIG Employee                                                                                  320

                                                                                                                    Yes                                                               75
My Supervisor or
                                                                           212
Program Manager                                       .
                                                                                                                     No                       20
             Other                 49
                                                                                                              Don't Know         5
                      0           50        100           150        200        250        300     350
                                                                                                                            0            20         40             60            80         100
                                                 num ber responding
                                                                                                                                                         percent


                 Question 15: To w hom did you give the                                                                 Question 16: Did your supervisor or program
                            docum entation?                                                                          m anager ask to see the docum entation you provided
                                  N=84                                                                                                    to the OIG?
                                                                                                                                             N=338
    Superviso r/P ro gram
                                                                           54
         M anager

                                                                                                                     Yes                           28
     A udit Liaiso n/A udit
          Fo llo w-up
                                                                37
        Co o rdinato r                                                                                                No                                                    63

                      Other            10                                                                     Don't Know             9

                                                                                                                            0            20             40             60        80             100
                              0             20            40     60                   80         100
                                                           percent                                                                                           percent


           Question 17: Did your supervisor or program                                                                     Question 18: Were you told that any or all of the
          m anager tell you w hat docum entation you should                                                                docum entation asked for by the OIG could not be
            provide and w hat docum entation you should                                                                    provided because it w as sensitive inform ation?
                               w ithhold?                                                                                                      N=414
                                  N=414
                                                                                                                     Yes             2
      Yes                     9

                                                                                                                      No                                                                    93
        No                                                                                  87

Don't Know        3                                                                                           Don't Know         4


             0                20                 40              60              80              100                         0           20             40             60        80             100
                                                      percent                                                                                                percent



                                                                                                         6

         Question 19: Have you ever been asked to provide                                                         Question 20: Did your supervisor or program
         w ritten answ ers to questions or surveys from the                                                      m anager know you provided w ritten answ ers to
               OIG as part of an audit, an evaluation, or an                                                           questions or surveys from the OIG?
                              investigation?                                                                                         N=232
                                  N=1050
                                                                                                           Yes                                                             85
       Yes                       22

                                                                                                            No                7
        No                                                               72

Don't Know       6                                                                                  Don't Know            7


             0             20             40              60              80            100                       0               20        40             60        80         100
                                               percent                                                                                           percent


          Question 21: Who asked you to provide written                                                     Question 22: Did you provide the written answers
          answers to questions or surveys from the OIG?                                                                    directly to the OIG?
                                      N=198                                                                                        N=198



                     An OIG Employee                                                    100               Yes                                                   70


My Supervisor or Program Manager                                          69                               No                          26


                                Other                    29                                         Don't Know        5


                                          0          30             60             90    120                      0               20        40             60    80             100
                                                     number responding                                                                           percent


          Question 23: To w hom did you give your w ritten                                                    Question 24: Did your supervisor or program
          answ ers to questions or surveys from the OIG?                                                      m anager ask to see the w ritten answ ers you
                               N=51                                                                          provided to questions or surveys from the OIG?
                                                                                                                                 N=163


My Supervisor or                                                                                          Yes                                         50
Program Manager                                                          69

                                                                                                           No                                       43

             Other                        31
                                                                                                    Don't Know            7


                     0          20             40          60                 80        100                       0               20        40             60    80             100
                                                 percent                                                                                         percent


           Question 25: Did your supervisor or program                                                        Question 26: Did your supervisor or program
        m anager ask to see your w ritten answ ers before or                                                m anager ask or instruct you to change the w ritten
               after you provided them to the OIG?                                                          answ ers you provided in response to questions or
                              N=163                                                                                       surveys from the OIG?
                                                                                                                                  N=151
Before providing them to the OIG                               36
                                                                                                          Yes                 14

 After providing them to the OIG                               29
                                                                                                            No                                                        79

                         Don't Know                            36                                   Don't Know            7

                                      0         20        40         60            80   100                       0               20        40             60    80             100
                                                           percent                                                                               percent


                                                                                               7

       Question 27: Were you told that any of your w ritten                       Question 28: Are you aware of any policies or
         answ ers to questions or surveys from the OIG                          procedures regarding how you may interact with
         needed to be changed because they conveyed                           the OIG during an audit, evaluation, or investigation?
                     sensitive inform ation?                                                        N=1050
                             N=150
                                                                                            Yes           Don't Know
                                                                                            17%             10%
      Yes        2

       No                                                         91

Don't Know           7
                                                                                       No
                                                                                      73%
             0           20        40             60         80    100
                                        percent




Question 29: Please indicate whether you agree or disagree with the following statements:



        Question 29A: I do not need to ask a supervisor's                            Question 29B: I must ask permission
                   permission to talk to the OIG .                                          before I talk to the OIG.
                              N=1050                                                                 N=1050

                                           Disagree                                               Agree
                                             12%                                                   11%


                                                    Don't Know                       Don't Know
                                                       24%                              25%
                         Agree                                                                                    Disagree
                          64%                                                                                       64%




       Question 29C: I should never talk directly to the OIG.                     Question 29D: I may meet with the OIG alone.
                              N=1050                                                                N=1050


                                 Agree                                                                     Disagree
                                  5%                                                                          8%
                 Don't Know
                    21%
                                                                                                                   Don't Know
                                                                                                                      28%
                                                                                            Agree
                                                  Disagree                                   64%
                                                    74%




                                                                         8

  Question 29E: I may meet with the OIG only if my              Question 29F: I may provide any kind of documents
supervisor, program manager, audit liaison, or other           or written answers to questions or surveys to the OIG
         Agency representative is present.                         without asking permission from a supervisor
                      N=1050                                    (excluding documents that require specific security
                      Agree                                                           clearance(s)).
                       7%                                                                N=1050

                                                                                                      Disagree
       Don't Know                                                                                       18%
          27%                                                               Agree
                                                                             48%
                                                                                                         Don't Know
                                      Disagree
                                                                                                            34%
                                        66%


   Question 29G: I must ask my supervisor before               Question 29H: I must give all documents or written
   providing the OIG with any documents or written             answers to questions or surveys to my supervisor,
     answers to questions or surveys (excluding                 program manager, audit liaison, or other Agency
documents that require specific security clearance(s)).        representative and that person will give them to the
                                                                                          OIG.
                        N=1050
                                                                               Agree    N=1050
                Agree
                 16%                                                             13%

                                         Disagree
                                                                                                        Disagree
      Don't Know                           52%                       Don't Know
                                                                                                          54%
         32%                                                            33%




Question 29I: I may talk or provide information to an             Question 29J: If I talk to OIG audit, evaluation or
  OIG audit, evaluation or investigation without my             investigation without my supervisor's permission I
supervisor's permission and not fear retribution or                 may face retribution or negative personnel
              negative personnel action.                                            consequences.
                         N=1050                                                          N=1050
                                Disagree                                         Agree
                                  13%                                             14%


                                         Don't Know                                                      Disagree
            Agree                                                   Don't Know
                                            26%                                                            57%
             61%                                                       29%




 Question 29K: If I provide information or documents               Question 29L: Management limits or delays
to an OIG audit, evaluation or investigation without my                   information requested by OIG.
  supervisor's permission I may face retribution or                                   N=1050
          negative personnel consequences.
                          N=1050
                                                                                    Agree
                Agree
                                                                                     8%
                 14%


                                                                                                       Disagree
                                        Disagree                    Don't Know
     Don't Know                                                                                          51%
                                          55%                          40%
        31%




                                                          9

                                 Question 29M: Management knowingly hinders OIG
                                               access to information.
                                                      N=1050


                                                         Agree
                                                          6%



                                        Don't Know                           Disagree
                                           40%                                 54%




          Question 30: Which statement best describes your organization's attitude towards the
                                       OIG (choose only one)?
                                              N=1050




          Staff may provide information directly to the OIG.                                       53




Staff may provide information directly to the OIG but only with
                                                                               20
                   supervisor’s knowledge.




Staff may provide information directly to the OIG but only with
                                                                        10
supervisor’s knowledge and approval of information provided.



 Staff may not provide information directly to OIG; information
  must be reviewed by a supervisor or program manager, or
                                                                               17
   someone else and provided to the OIG through the audit
             liaisons or other designated official.


                                                                   0          20        40             60   80   100

                                                                                             percent




                                                                  10

                                                                            Appendix B

                                     Distribution

Deputy Administrator
Office of the Administrator
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                           11

